      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




January 24, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services

              /Joe Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Alabama’s Compliance With the Reserve or Rainy Day Fund
              Requirement for the Increased Federal Medical Assistance Percentage Under the
              American Recovery and Reinvestment Act (A-04-10-03058)


Attached, for your information, is an advance copy of our final report on Alabama’s compliance
with the reserve fund requirement for the increased Federal medical assistance percentage under
the American Recovery and Reinvestment Act. We will issue this report to the Alabama
Medicaid Agency within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-10-03058.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, S.W., Suite 3141
                                                                          Atlanta, GA 30303
January 26, 2011

Report Number: A-04-10-03058

R. Bob Mullins, Jr., M.D.
Director
Alabama Medicaid Agency
501 Dexter Avenue
P.O. Box 5624
Montgomery, AL 36103-5624

Dear Dr. Mullins:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Alabama’s Compliance With the Reserve or Rainy
Day Fund Requirement for the Increased Federal Medical Assistance Percentage Under the
American Recovery and Reinvestment Act. We will forward a copy of this report to the HHS
action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-10-03058 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF ALABAMA’S COMPLIANCE
 WITH THE RESERVE OR RAINY DAY
   FUND REQUIREMENT FOR THE
  INCREASED FEDERAL MEDICAL
 ASSISTANCE PERCENTAGE UNDER
  THE AMERICAN RECOVERY AND
       REINVESTMENT ACT



                       Daniel R. Levinson
                        Inspector General

                         January 2011
                         A-04-10-03058
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov


Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.
Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

Temporary Increases in Federal Medical Assistance Percentages
The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act will provide
an estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs.
Section 5000 of the Recovery Act provides these increases to help avert cuts in health care
provider payment rates, benefits, or services and to prevent changes in income eligibility
requirements that would reduce the number of individuals eligible for Medicaid. However,
pursuant to § 5001(f)(3) of the Recovery Act, a State is not eligible for the increased FMAP if
any amounts attributable (directly or indirectly) to such an increase are deposited or credited into
any reserve, or rainy day, fund.

Alabama’s Temporary Increase in Federal Medical Assistance Percentage
In accordance with provisions in the Recovery Act, CMS made $354.1 million in additional
Medicaid funding available to the Alabama Medicaid Agency (State agency) for fiscal year
(FY) 2009 (October 2008 through September 2009). For the first 2 quarters of FY 2009, CMS
increased the State agency’s FMAP by 8.66 percent, from 67.98 percent to 76.64 percent. For
the last 2 quarters of FY 2009, CMS increased the State agency’s FMAP by an additional 0.87
percent, from 76.64 percent to 77.51 percent.




                                                 1
Alabama’s Reserve or Rainy Day Accounts

Within the Alabama Trust Fund, the Alabama Treasury Department maintains two reserve
accounts: the Education Trust Fund Rainy Day Account and the General Fund Rainy Day
Account. Alabama created these accounts in the event that revenues were not sufficient to fund
State appropriations.

OBJECTIVE, SCOPE, AND METHODOLOGY
Objective
Our objective was to determine whether the State agency complied with the Recovery Act
reserve or rainy day fund requirement for receiving the increased FMAP.

Scope
We reviewed the State agency’s use of the additional Medicaid funding for FY 2009. We did not
review the State agency’s overall internal control structure. We limited our review to obtaining
an understanding of the procedures that the State agency used when allocating FMAP funding.

We performed fieldwork at the State agency, the CMS Regional Office in Atlanta, and the State
Legislative Budget Office in Montgomery, Alabama, from May to September 2010.

Methodology
To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations and CMS guidance,

   •    reviewed Alabama’s A-133 audit reports for FYs 2008 and 2009 for findings related to
        our objective,

   •    interviewed the State agency’s chief financial officer regarding the amount of Recovery
        Act funding for the audit period,

   •    interviewed officials of the State Legislative Budget Office about the use of State
        appropriations that were not required because of the increased FMAP,

   •    obtained from officials of the State Legislative Budget Office information showing the
        deposits that the State made into its two rainy day funds,

   •    obtained and reviewed information from the State’s Central Accounting System that
        showed the use of State Medicaid funds, and

   •    determined the amount of Recovery Act funds that the State agency drew from the
        Federal Treasury for the audit period and compared it with amounts reported to CMS as
        Medicaid expenditures.


                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW
The State agency complied with the Recovery Act reserve or rainy day fund requirement for
receiving increased FMAP. Specifically, the State agency did not use additional
Medicaid funding to supplement any reserve or rainy day account. Therefore, we have no
recommendations.

However, as discussed below, the State agency drew Federal Recovery Act funds that exceeded
the amount of the Recovery Act expenditures reported on its Quarterly Statements of Expenditures
for the Medical Assistance Program (CMS-64 reports) for the audit period. The State agency did
not provide an explanation for the excessive drawdown of Recovery Act funds.

                                      OTHER MATTER

During FY 2009, the State agency drew Recovery Act funds totaling $354,083,748 but reported
on its CMS-64 reports Recovery Act expenditures of $351,688,224, a difference of $2,395,524.
Federal regulations (45 CFR § 92.21(b)(c)) require that award recipients draw Federal funds as
closely as possible to actual needs.
We also noted that the Alabama State Examiners of Public Accounts reported in its A-133 audit
report for FY 2008 that “[e]rrors in the [State agency’s] cashbook have been noted in the past
causing the inaccurate forecasting of cash needs and drawing of [F]ederal funds.”
We did not find any evidence that CMS had reconciled the State’s drawdowns to its expenditures
and made appropriate adjustments. In addition, the State agency did not provide an explanation
for the difference in the amount of Federal funds drawn and reported as expended; we requested
an explanation multiple times. Consequently, we were unable to determine whether the
excessive drawdowns were used for allowable Recovery Act purposes.




                                               3
